Deparment of Health and Human Services

                          OFFICE
   INSPECTOR GENERAL





     INDIAN HEALTH SERVICE

   YOUTH ALCOHOL AND

SUBSTANCE ABUSE PROGRAMS





                      VJCES.



                               Richard P. Kusserow
                               INSPECTOR GENERAL

        Jy
                                  APRi 1991
             ;(O'   d:W
Deparment of Health and Human Services

                    OFFICE
   INSPECTOR GENERAL





     INDIAN HEALTH SERVICE

    YOUTH ALCOHOL AND

 SUBSTANCE ABUSE PROGRAMS





            ~ S f.IlVJCES.



                             Richard P. Kusserow
                             INSPECTOR GENERAL
       '0
            + OEI-
            ;(O'~d:W
                                   07- 89- 00940
                    EXECUTIVE SUMMARY

PURPOSE

The objective of this inspection was to determine the extent to which the Indian Health Service
(ilS) has implemented youth alcohol and substance abuse progrs funded under Public Law
99- 570.


BACKGROUND

Over the past two decades, American Indians have recognized the importce of treating their
alcohol abuse problems, and national attention has been provided to address the situation.
Reasons attrbuting to this concern include an alcoholism related death rate of over four times
the age adjusted rates for the U. S. population , and an admssion rate of 34 percent to alcohol and
drg abuse programs for Indians who are under 25 year of age. For Indians under 35 years of
age, this statistic increases to almost 70 percent.

In the late 1960' s, the Offce of Economic Opponunity funded outrach and tratment progrs.
The National Institute on Alcohol Abuse and Alcoholism (NIAA), established in the 1970'
provided seed monies for treatment of alcohol abuse among the Indians. In the Indian Health
Care Improvement Act of 1976 (Public Law 94-437), Congress dicted that NIAAAprograms
be transferred to IRS jurisdiction.

On October 27, 1986, Congress enacted Public Law 99- 570, subtitled the " Indian Alcohol and
Substance Abuse Prevention and Treatment Act of 1986. " In the fIrst three years of Public Law
99- 570, approximately $50 milion in recurrng funds and $19 millon in nonrecurrng funds
were appropriated for youth alcohol and substance abuse programs.


METHODOLOGY

To secure the information needed to examine operations and activities regarding Public Law
99- 570, data collection instrments were mailed to the 11 ilS area offices. An analysis of the
information was conducted to determine to what extent each area office had implemented the
provisions of Public Law 99- 570. To verify data received, thre IHS ara offces were selected
for on-site visits. On-site visits were also made to the two regional treatment centers which were
operational at the time of our study. Administrative and program sta were interviewed to
determine the level of operations that the centers had achieved.
FINDINGS


       The IHS Headquarers has not completed IHS alcoholism treatment standads.

       The IHS Headquarers has failed to meet quality assurce objectives.

       The current IHS management information system is outmoded and ineffective to
       monitor alcohol program activity.

       The ilS has failed to comply with requirements in Public Law 99- 570 to establish
       regional treatment centers in all IRS service areas.

       Nearly two-thirds of alcoholism counselors in the IRS are not cenifed.

       The Bureau of Indian Affais has nOt established emergency shelters as required by
       Public Law 99- 570.

       Evidence of inappropriate use of funds has been referred to the OIa Office of Audit
       Services.


RECOMMENDATIONS


       The ilS should complete and promulgate      operating stadads.

       The ilS Headquarers and    area offIces should conduct reviews in accordace with
       their own quality assurance goals.

       The ilS should establish a process to review all area offIce program report   and
       provide feedback to the ara offces.

       The ilS should develop   an adequate management information system which
       provides data on alcohol and substance abuse tratment.

       The ilS should establish regional treatment centers in every ilS service area, or
       advise Congrss of their recommendation for an alternative strategy to provide
       residential services.




       The ilS should   ensure that all alcoholism counselors become certfIed.

       The IHS should work with the Bureau of Indian Affai to secur the release of funds
       which have been appropriated for emergency shelters and halfway houses.
COMMENTS

We received comments to the drft of this repon from the Public Health Service (PHS). The
PHS concurrd with al the recommendations. However, PHS comments state that successful
implementation of the last two recommendations cannot be assured because those two areas are
not solely within IRS' s control.

We agree that programs of the Bureau of Indian Affairs are not under PHS' s diect control.
However, we believe the IHS should continue coordination effort with the Burau of Indian
Affairs in order to assure the timely constrction and operation of emergency shelters and
halfway houses.
                                           ........ ...,..
                                                    ..............................  ..........
                                                              ............ ............
                                                                              .... ..........   ...... ......
                                                                                              ........        ................ .............
                                                                                                       ....................................

                                                                                        ....................................    ............




                       TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTR 0 D U CTI 0 N .......... ...... ...... 


       PURPOSE............ ........ 


       BACKGROUND ................................ ........ 


       MEll ODO LOG Y ..............................................................................................

FIND IN G S .................................................................................................................. 3


       The IRS Headquarers has not completed                              ilS alcoholism               treatment
       standards................................................................ .............................................. 3


       The IRS Headquarers has not met quality assurce objectives.........................


       The current ilS management informtion system is outmoded and
        ineffective to monitor alcohol                  progr
                                           activity ................................................


        The IRS has nOt complied with requirments in Public Law 99- 570
        to establish regional tratment centers in all ilS servce areas ...........................


        Nearly two-thirds of alcoholism counselors in the ilS                                    are not cenied.............



        The Bureau of Indian Affais has not established emergency shelters
        as required by Public Law 99- 570 .....................................................................


        Evidence of inappropriate use of funds has been referred to the
        OIG Offce of Audit Services .............................................................. ................ 8


 RECO MMEND A TI 0 NS .................................. ................ ........ .................................


 A G EN CY CO MMENTS ........................................................................................


                                                                                          .......................................... A­

 APPENDIX A ........ 

                            INTRODUCTION

PURPOSE
                                                                                             (ilS)
This inspection was undenaken to determine the extent to which the Indian Health Service
has implemented provisions for youth alcohol and substance abuse programs funded under
Public Law 99- 570.


BACKGROUND
                                                                                  Over the past
The problem of alcoholism among American Indians has existed for many years.
                                                                             trating their
two decades, however, Native Americans have recognized the imponance of
alcohol abuse problems. Reasons attrbuting to this concern include an alcoholism related death
rate of over four times the age adjusted rates for the U. S. population, and an admssion rate of
almost 34 percent to alcohol and drg abuse programs for Indians who are under 25 years of age.
For Indians under 35 years of age, this statistic increases to almost 70 percent.

National attention began to focus on the problem of alcohol abuse among American Indians in
                                                                                       outreach
the late 1960' s when the Offce of Economic Opponunity (OEO) provided funding for
and treatment in Indian communities. The National InstitUte on
                                                                Alcohol Abuse and Alcoholism
(NIAAA), which was established in the 1970' s, provided seed monies for treatment of alcohol
abuse among the Indians. The NIAAA funded the OEO-supponed programs and also provided
star-up or special funding for additional demonstration projects. The NIAAA monies were not
meant for long-term funding, therefore, Congress created the Indian Health Care Improvement
                                                                      transferred to ilS
 Act of 1976 (Public Law 94- 437), directing that NIAAA program be
jurisdiction. There was a grdual transfer of these progrs betWeen 1978 and 1981.
                                                                                    638
 Most of the grants were convened to contracts, the majority of which were called "
 contracts " in line with Public Law 93- 638, the Indian Self-Determnation and Education
 Assistance Act. The Self- Determination law , which was reauthorized in October 1988 as Public
 Law 100- 472, is currently in effect and represents a subs antial component of the award process.
 The Self- Determination law allows the IHS to contract diectly with Indian trbes for operation
 of their own service programs. The IHS awards and monitors these
                                                                      progrs through its 11 area
 offces.

 On October 27, 1986, Congress enacted Public Law 99- 570, the " Indian Alcohol and Substace
                                                                                           Act
 Abuse Prevention and Treatment Act of 1986. " In addition to regular appropriations, this
 authorized substantial funds for both IHS and the Bureau of Indian
                                                                    Affais (BIA) for alcohol and
 substance abuse services to the Indian youth population.

 On November 18, 1988, Congress reauthorized and amended Public Law 99-
                                                                           570. SpecifIcally,
 the law authorized appropriations to the Secretar of Health and Human Services for funding to
 implement an Indian Health Service Youth Program. Under this program, the Secretar, acting
through IHS, was to establish an alcohol and substance abuse program for Indian youth that
included the following activities:

           Development and implementation of a program for detoxification and treatment for
           Indian youth who are alcohol and substance abusers. This was to include regional
           treatment centers designed to provide detoxification and rehabiltation for both sexes
           on a referral basis. These regional treatment centers ar to be integrated with the
           intake and the rehabiltation programs that exist in the Indian communities.

           Renovation or constrction of    a youth regional treatment center in each area under the
           jursdiction of an ilS area  office. For the purose of constrcting or renovating these
           regional treatment centers, $6, 000, 000 was authoried for the fIscal year 1989 and
           $3, 000, 000 was authorized to be appropriated for fiscal years 1990 and 1991.

          Also, for the purpose of stafng and operating such centers, $3, 000, 000 was
          authorized for fiscal year 1989 and $11, 000, 000 for fIscal year 1990. For fUture fiscal
          years, there wil be an amount equal to fIscal year 1990 included in the base budget of
          the IHS.

           Cooperation with the BIA in developing and implementing community- based
           rehabilitation and follow-up services for Indian youth who are alcohol or substance
           abusers. These services ar to be designed to integrte long-term treatment and to
           monitor and suppon the Indian youth after their retu to their home communities.

           Inclusion of family members of the youth in the tratment programs or other     services.



METHODOLOGY

The 11 ilS area offces were the primar soure of informtion for this review. Offce staf
directly involved with or knowledgeable of the varous inspection topics were asked to complete
data collection instrments designed to secure the information needed to exame operations and
activities. The questions included in the data collection instrments addssed varous topics,
including guidelines and procedures, programs and services, regional tratment centers, fInancial
accountability, operational monitorig, and the ilS management information system.

An analysis of the information was conducted to determne to what extent each area offce had
implemented the provisions of Public Law 99- 570. To verify data received, three ilS area
offices were selected for on-site visits.

On-site visits were also made to the two regional tratment centers which were operational at the
time of our study. Administrative and program staff were intervewed to determine the level of
operation that the centers had achieved.
                                     FINDINGS

The IHS Headquarters has not completed IHS alcoholism treatment standards.

The Public Law 99- 570 was passed in October 1986, and the IHS Alcohol and Substace Abuse
Programs branch issued draft stadards in Februar 1988. These standards were revised in
September 1988 and, as of July 1990, were still in draft. The thee offces we visited indicated
that faiure to fInalze the guidelines created operational problems. For example, staff at one area
offce said that they feel no compulsion to follow the IHS draf alcoholism stadards because
they are not in final and ilS Headquarers, based on past experience, wil not enforce them.
Employees at a second area offce said that little diection and lack of approved standads caused
gaps in tratment services and weakened IHS Headquarrs ' crdibility on alcoholism. The third
area office visited developed its own alcoholism stadads, based in pan on ilS' s draft
standards. This area offce follows these guidelines, in addition to aftercare progr guidelies,
which were developed by area offce staf.

According to the three area offces, the ilS Headquarers has provided very little guidance to
IHS area offices in development and implementation of Public Law 99- 570 programs. The IRS
Headquarers has not provided enough technical assistance to the ara offces nor do they have
enough hands-on knowledge of the day-to- day operations at the area offces, according to the
area office interviewees.

The IHS Headquarters has failed to meet quality assurance objectives.

           The IRS Headquarers did not conduct reviews of area offices every two years.

According to IRS Headquarers directives, the ilS Alcohol and Substace Abuse Progrs
branch is to review ara offces once every two years. Although IHS reviewed six area offices in
1988, only one area office was reviewed in 1989. Four area offIces have not had a formal
quality assurance review from the IRS Alcohol and Substace Progrs branch in the last two
years.

Because of lack of guidance and approved standards, area offIce sta are uncenan about the
appropriateness of funding decisions made for cenain activities. For example, within one area
office s service area, at least two activities appeared to be inappropriately funded under the youth
alcoholism programs. One was a " Sober Rodeo " in which pancipants and the audience were
banned from bringing alcohol onto the premises, and the other was an elaborate renovation of a
camping site in which substance- free lifestyles were only a small par of the campout s agenda.
Area office staf doubted the validity of these alcoholism treatment program, stating that they
now question whether this was an appropriate utilization of Public Law 99- 570 funds.
                                                                                              g.,




             Area offices did not conduct reviews of trbal programs in accordance with their own
             goals.

  The IRS draft alcoholism standards indicate that periodic quality assurance reviews should be
  conducted. To check the extent to which quality assurance reviews monitored the programs, a
  copy of each quality assurance review conducted in calenda year 1989 by area offIce staff was
  requested. An analysis of these reviews revealed that each area offce performed the reviews in
  their own manner with their own evaluation instrment

  All IRS ara offices had different quality assurance objectives. We found varance between
  these objectives and the number of reviews actually conducted. Eight of eleven ara offices had
  established their own goals for annual reviews of al their tratment programs. Two area offIces
  had a goal for every other year reviews, while another ara office attempted reviews twice
  annually. Only one area had successfully met their goal.

             The IRS did not make effective use of information obtained in the reviews which they
             did conduct.

  Many common weakesses were noted among the numerous tratment programs in the area
  offce review repons. Severa trbal alcoholism progrs did not have established policies or
  procedures, nor did they follow the IHS   drt
                                              alcoholism standads. According to many of the
  reviews, the forms comprising the management information system (the Alcohol Treatment
  Guidance System) were not being fIlled out or were not completely filled out. Case fIe
  organization was a serious problem among severa trbal alcoholism programs. Also, treatment
  plans were often incomplete and unclear.

  The IRS area offIce reviews mentioned that few of the alcoholism counselors were cenied.
  Some reviews said that sporadic counseling among tratment providers crated gaps in services,
  and that some youth were not receiving enough periodic individual or group counseling (e.
    L. 99- 570 youth counselors were being used at a few treatment sites to provide counseling to
  clients in the adult residential treatment program, resulting in less time available to spend with
  the youth). A positive factor noted in the reviews is that cogent recommendations were almost
  always given , as well as follow-up site visits being scheduled if problems were discovered.


  In discussion with staff from three area offces, we found that the ara offce   progr review
  repons are not requested by nor submitted to IRS Headq     arrs. There   is apparently no process
. in place for   IRS Headquarers to utilize information from the area offce program review report
  to provide feedback to all the area offces on common program defIciencies.

  The current IHS management information system is outmoded and ineffective to monitor
  alcohol program activity.

  Data submitted from the 11 area offices indicated that the Alcohol Treatment Guidance System
  served its purpose in the past, but has not been updated to fully serve curent program
  management needs. The area offce staff interviewed said that they did not trst the data
produced by the management information system. Among the weakesses pointed out, al area
offces rased questions about   the accurcy, reliabilty, and effIciency of the management
information system. A few offIces also expressed concerns about the outdated mode of entering
information into the system (i. e., keypunching). They felt that there are numerous errors
associated with this type of process crating a lack of trst in this system.

While the DIG is awar that the IRS has been developing a new management information
system over the last fIve years to track data on alcohol and substance abuse treatment, the system
has yet to be implemented. The review team has leared that full implementation of the system
at all area offIces wil not occur until 1995.

The IHS has not complied with requirements in Public Law 99-570 to establish regional
treatment centers in all IHS service areas.

Public Law 99- 570 provides for the constrction or renovation of a youth regional treatment
center (RTC) in each of the 11 IRS service areas. While presently six RTC' s are reponed
operational by ilS, only two were operational at the time of the study. The two RTC' s were the
New Sunrse Regional Treatment Center in Acoma, New Mexico and the Jack Brown Center in
Tahlequah, Oklahoma. In those areas where an RTC is not operational, the area offces indicated
thauesidential treatment is generally purchased from commercial programs using P. L. 99- 570
funds.

Problems were cited as reasons for noncompliance with the law. These include historical
animosities among trbes causing an unwilingness to come to a consensus on the location of a
facility, the purchase of comparble treatment services from the private sector, and the failure to
find a suitable facility which would serve as a treatment center.

Disagreement exists among some IHS components over the effcacy of RTC' s. One area offce
prefers to use only commercially purchased treatment. Two area offices felt that one regional
treatment center per ara offce region is insuffcient. These tWO offces said more RTC' s are
necessar to deal with the diversity of trbes and because of geogrphical limitations.

In one area with an ilS-operated RTC, the average cost of treatment of a youth was
approximately $20, 000. In contrst, the average cost of residential treatment in a commercial
program was approximately $6 300 per individual. This is primarly due to the fact that the
average stay in the IHS-operated RTC is considerably longer than the commercial progrs. We
recognize that there may be a difference in kinds and qualities of services. Also, according to
IHS officials, the RTC deals with many cultural needs and issues that ar not addrssed by
commercial programs.

The second regional treatment center, which was a trbally-operated facilty, had provided
treatment for 53 youth between the ages of 13 and 18. The average cost of treatment was about
$14 150 per youth for 122 days of inpatient treatment at $116 a day. Discussions held with area
office staf indicated that the concept of the RTC could be very successful as long as provisions
are made to address multiple diagnostic issues, and to include family involvement as part of
residential treatment. They also indicated that this is not always par of the treatment process in
a commercial program. In addition to the RTC, however, they noted that referr agencies such
as Alcoholics Anonymous should be utilized in an effon to unite community resources in the
development of aftercare teams to maintan progression made by youth and their families in
treatment.

Nearly two-thirds   of alcoholism counselors in the IRS are not certified.

The IHS   drt operating standards, which ar the only operating rules curently in existence,
require counselors who provide tratment services though IHS- funded programs to be cenified
as substance abuse counselors. Information provided by most of the ara offces indicated that
they rely on the State s rules to determne counselor certfIcation requirements.

The IRS draft alcoholism stadads lists thee classifIcations of counselors and counselor interns.
The intern must be in a course leading towards cenication; the   fit level counselor shall be
certfIed but not necessarly have any practical experience; and the second level counselor must
be cenified as a substance abuse counselor and have two years counseling experience in a
substace abuse program or counseling agency. One year of this counseling experience must
have been with youths with alcoholism/substace abuse problems and must have provided an
opponunity to demonstrate knowledge of counseling theory, techniques, and practices specific to
Indi.an youth.

The draft alcoholism standads do not provide a   tie fre for certfication of all IRS
counselors. At one area office site which we visited, the OIG review team was told that by the
end of a counselor s first year, that individual had to be cenied or workig toward eventual
certfIcation. The IRS employee admitted that by using ths crteria any counselor could fall into
the latter category, which was labeled " certfIable. " A recovering alcoholic would fIt into this
category. It was explained to us that this is how ilS retans its non- qualfIed and largely
uncertfIed counseling   staff.

As of sprig 1990, approximately 62    percent of all counselors were uncenied. According to
area office staf interviewed, the primar reason for this high figur is that the individuals simply
could not pass the cenifIcation examination. In addition, those who do pass the exam frequently
leave for more lucrative positions.

One area offce site visited decided not to retain its uncertfied sta. Alcoholism counselors
were given three opponunities to pass the certfication examnation. Within one service unit in
this Area, all alcoholism counselors " flunked" the certfication exam 3 times, and were dismissed
by the area diector. The area office indicated that this maner of " gettg tough" is resulting in
higher competence among treatment staff and better- quality treatment programs. The following
graph displays the number of cenifIed and uncertfied counselors by area offices.
            ....
           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. . . ... . . . . . . . ... . .. . .. . . . '. . . .                                 . ...
                                                                                                                                                                .. .                     . . . . . ... .. . . . .




                                   Alcoholism Counselors

                                                               By IHS Area Office
           # of Counselors

     160
      40                                                                                                                        ..... . .. .. n. n .. ...0.            ..... .. . n ..

     120 no.
     100




                                                                                      IHS Area Offices
                                                                                                             Legend
                                                              lI             Certified                                               Noncertified



The Bureau of Indian Affairs has not established emergency shelters as required by Public
Law 99-570.

Public Law 99- 570 provides for the establishment of emergency shelters or halfway houses by
the Bureau of Indian Affais for Indi(U youth who are alcohol or substance abusers, including
youth who have been 31ested for offenses dictly or indictly related to alcohol or substace
abuse. Regardig the latter, the law stipulates that when an Indian youth is 31ested for an
alcoholism related offense and parntal custody is not possible, " such youth shal be referrd to
such facilty in lieu of incarceration...

In addition to a referral facilty for youth who are arsted for alcohol related offenses,
emergency shelters and halway houses also provide an alcohol- free environment for youth who
have undergone residential tratment for alcoholism or substace abuse and cannot retur to
their community immediately.

At the time of the review, only one emergency shelter and no halfway houses had been
established. Through September 1990, $8 millon has be en appropriated for constrction of
emergency shelters for fiscal years 1987- 90, but approximately $5 milion has been actually
distrbuted. Also, although $12 millon was authorized for operation and stafng of emergency
shelters for fiscal years 1987- 90, only $1 milion was actualy appropriated, with $926, 000
actually distrbuted in fiscal year 1990.
Regional treatment center and ara offce sta              interviewed said that the lack of these
                                                               who were
                                                         lapse, and severely limits the impact of
transitional living centers results in a high incidence of 


dollars spent on residential tratment. They indicated that the absence of these facilities also
prevents youth who have received residential treatment frm returning to an alcohol- and
drug- free environment after discharge. Therefore, youth ar forced to return to the same setting
which may have initially contrbuted to their alcohol or substace abuse.

EJ'idellce of ill appropriate use of funds has been referred to the DIG Office of Audit Services.

Our inspection included a review of documentation and interviews with IRS employees. Based
on information obtained in our review, we have made a referr of a possible misappropriation of
 L. 99- 570 funds to the OIG Office of Audit Services for a financial audit.
                         RECOMMENDATIONS

   The IHS should complete and promulgate operating standards.

   The IRS should act expeditiously to finalize the existing draft operatig   standads for youth
   alcohol and substance abuse programs. Approved operating stadards would enable the area
   offices to reference specific guidelines in implementing and monitoring requirements of Public
   Law 99- 570.

   The IHS Headquarters and area offices should conduct reviews in accordance with their own
   quality assurance goals.

   The IRS Headquarers and IHS area offces should come to a consensus as to what is needed by
   way of program performance reviews and commit the appropriate resources to accomplish this.
   PrOtocols should be reviewed and modified to assure the most appropriate timing and content of
   reviews and mae. up of review teams.

   The IHS should establish a process to review all area offce program reports and provide
. feedback to the area offices.

   The IRS Headquarers should establish a process to review all area office program review
   repons to identify common progrm weakesses and systematically communicate them to the
   area offices. This would permt ilS Headquarters to specify areas of program priorities, needs,
   or deficiencies for area office follow up.

   The IHS should develop an adequate management information system which provides data on
   alcohol and substance abuse treatment.

  It is imperative that the IHS complete, as soon as possible, a comprehensive management
  information system which can appropriately distinguish between and follow all clients
  participating in the alcoholism programs, and the extent and nature of services that were
  received. The management information system should be fully developed to handle youth
  alcoholism program data and modern treatment methodologies.

  We also recommend that the new system provide a capabilty for trbal input and access. This
   would provide timely information at the trbal level to follow clients and conduct composite
   analyses on the trbal caseload.



  The IHS should establish regional treatment centers in .every IHS service area, or advise
  Congress of their recommendation for an alternative strategy to provide residential services.

  The IRS should increase effons to see that service areas without a regional treatment center
  establish such a facility as mandated by Public Law 99- 570. As some service areas have
  encountered barers in attempting to establish regional treatment centers, the ilS should
coordinate with the ara offices to addrss the problems that hinder timely establishment of
regional treatment centers.

Since some disagreement exists among ara office constituents over the effcacy of regional
treatment centers, the IHS should formally assess the regional tratment center issue and advise
Congress of their recommendation on any new strtegies.

The IHS should ensure that all alcoholism counselors become certfied.

The IHS should ensure that al alcoholism counselors ar                              IHS draft
                                                          certfied, as required by the
operating standads. If the alcohol and substace abuse treatment of Indian youth is to be
effective, qualifed counselors ara of prima importce. Ara offces should do everything
possible to promote cenmcation of and professionalism among alcoholism counselors.

The IHS should work with the Bureau of Indian Affairs to assure the timely construction and
operation of emergency shelters and halfway houses.

Since treatment of the adolescent abuser often requirs alcohol- and drg- free transitional living
quarters, the effectiveness of the residential treatment program is impaid when there are no
emergency shelters or halfway houses.

Without trsitional    living centers, youth must retu to an environment which may have
precipitated the problem. Considerable tie has elapsed since the appropriation of these funds,
and it is imperative that IRS enhance effons to see that establishment of these facilties takes
place.

To ensure effective utilzation of these facilities when established, provisions should be
developed for adequate and timely monitoring of these facilties.

We recommend that the ilS reexamine the Memoradum of Agrement with the Bureau of
Indian Affai (BIA) to establish a management framework for the stang and operation of
emergency shelters and halway houses that results in an effective coordination of resources and
programs of IHS and BIA components. A modifIcation of the Marh 1987 Memoradum of
Agreement may be necessar in order for tratment goals to be met.
                       AGENCY COMMENTS

The Public Health Service (PHS) concurrd with all the recommendations in the OIG draft
repon. However, PHS stated that successful implementation of the last two recommendations
cannot be assured because those two areas are not solely within ilS' s control.


We agree that programs of the Bureau of Indian Affais are not dictly    under PHS' s  control.
However, we believe the IRS should continue coordination effort    with the   Bureau of Indian
Affais (BIA) in order to assure timely constrction and operation ofemergency shelters and
halfway houses. In a recent contact with BIA staf, we were advised that the constrction of
emergency shelters and halway houses would slip from the present schedule to a completion
date in fiscal year 1992.

While agreeing to emphasize the importnce of having all counselors cenifed, PHS believes that
a more realistic and practical goal is to certfy 80 percent of counselors by 1991, and then retain
that level. We agree that such a program would be responsive to our recommendation.
    APPENDIX A

PUBLIC HEALTH SERVICE COMMENTS
         DEPARTMENT OF     REm   HUMA SERVICE                                              Pulic   He

                                                                                           Memorandum
Dae
          JA 2      1991


From     Assistant Secretary for Rea             1 t
                                                                             '9
                                                             ,,); "l
Subjec   PRS Comments on Office of Inspector(i eral Draft Report

          Indian Health Service (IRS) Youth Al
 hol and Substance Abu

         Programs
         Inspector General , OS



         Attached are the PHS comments on the findings and

         recommendations contained in the subject draft
         we cone ur wi t h all of the re commenda t ions) the following
                                                                        Though            report.
         comments explain why    successful implementation of the

         recommendations is not solely within IRS' control.
                                                                                                        ast




         First ,since IRS is outside the certification process, and
         because there is wide variance in the certification proe

         among the States , there are legitimate reasons that restrict
         IRS from ensuring continuous certification of all alcoholism

         counselors employed in Indian alcohol programs. Second , though

         IRS has a positive working relationship with staff in the

         Bureau of Indian Affairs (BIA), Department of Interior , the
         eventual construction of emergency shelters and halfway houses
         using BIA appropriated funds is not under IRS control.

                                                             6. Ik
                                                       Mason , M.                 ) Dr.
         Attachment




                                    I.           , r
                                    i 'U                   ...1        .Ji


                                                          ) ::::;:.;f
                                                  . I 

                                           i -            1-' .

  PUBLIC HEATH SERVICE (PHS) COMMS ON OFFICE OF INSPECTOR
GENERA ( OIG ) DRAT REPORT II INDIA HEATH SERVICE YOUTH ALCOHOL
        AND SUBSTANCE ABUSE PROGRAS, " OEI- 07- 89- 00940


OIG Recommendation

We recommend that the Indian Health Service                             ms ) :
             Complete and promulgate operating                    standars for youth
             alco  l and substance abuse programs.

PHS Comment

We concur. On              1990, the operating standards were
                                       August              20,

submi tted to the IHS Division of Management Policy fpr
approval. It is   expected that the standards will be ' approved
by the end of March                                   1991.
                            Upon approval of the standards,
instructions will be developed and sent to the 12 IRS Area

Alcoholism/Substance Abuse Coordinators for 
  plementation in

their area wi thin one month of the approval of the standards.

Monthly follow-up calls will be placed to each IRS Area

Coordinator to check on the progress in 
                            plementing the
operating procedures. Full imlementation of the standards
should be completed by the end of fiscal year (FY) 1991.

Sumary reports                       plementation will be
                                            on the progress of

submitted to the Associate Director, Office of Health Programs

( OHP ),          IHS, on a monthly basis.

OIG Recommendation

             Headquarters and Area Offices conduct reviews in

             accordance with their ow quality assurance goals.
PHS Cornen
We concur. A renewed emphasis has been initiated to improve

quality assurance site reviews in each of the 12 IHS                             Areas.
Decemer 6,         the IHS Area Alcoholism/Substance Abuse

                               1990,

Coordinators, IHS Headquarters Alcoholism and Substance Abuse

Program Branch (ASAPB) staff, and tribal representatives formed

a workgroup to implement a plan for reviewing Area Office

alcoholism progr s using a newly revised protocol. The
workgroup will finalize the review protocol by the end of

February 1991. A schedule namng the sites to be reviewed and
the dates of the review will be completed and distributed to

each Area Office by the end of March            the interim,     1991. In
review teams consisting of IHS employees, tribal

representatives, and alcoholism staff will be formed and,
beginning in May 1991, these teams will be sent to each Area to

review these programs. A report on the findings and
recommenda tions of the reviews will be completed by October

1991.
Monthly follow-up reports  sumrizing  the progress of reviews
will be submitted to the IHS Area Directors; Associate

Director, OHP; and Area Alcoholism/Substance Abuse Coordinators

beginning in January 1992.
eIG Recommendation

     Establish a process to review all Area Office program

     reports and provide feedback to the Area Offices.

PHS Comment

We concur. On Decemer 6, 1990, an IRS/tribal workgroup to

provide oversight for this activity was established. The
workgroup will establish a process and fo   t for reporting

data concerning program admnistration by February  1991.   The
proposed for.t  will be presented to the Area
Alcoholism/Substance Abuse Coordinators for their review,

comment and approval at their next meeting scheduled for March

1991. Area Coordinators will be trained on this process in

order to have it implemented in all Areas by the end of April

1991.  Follow-up training on the use of the process will be
provided to all Area Coordinators to ensure unifo:m

  plementation by the end of May 1991.

eIG Recommendation

     Develop an adequate management infor.tion  system which
     provides data on alcohol and substance abuse treatment.
PHS Comment

We concur.                   a workgroup was fo ed to
               In Decemer 1990
establish a workplan for revising the activities for the

modification of the Alcoholism Treatment Guidance System. This
workplan was developed and presented to Area

Alcoholism/Substance Abuse Coordinators and tribal

representatives. Area Coordinators were provided copies of the

  plementation plan and were asked to submit a corresponding

Chemical Dependency Management Info   tion System (CDMIS) for

their Area by January 31, 1991. The Area CDMIS implementation

plans will be consolidated into a master CDMIS plan. The Beta

testing of CDMIS in selected Areas will be completed in August

1991, and full-scale implementation of CDMIS in all Areas will

begin in the first quarter of FY 1992.  Smmry reports on the
status of the progress of the CDMIS activity will be  subtted
to the Associate Director, OHP; Area Directors; and Area

Alcoholism/Substance Abuse Coordinators on a monthly basis
beginning January 1992.
eIG Recommendation

             Establish regional treatment centers (RTCs) in every IHS
             service area or advise Congress of their recommendation

             for an alternative strategy to provide residential

             services.
PHS Comment

We concur. The ASAPB Medical Advisor and the Alcoholism

Program Specialist are responsible for maag g ths acti vi ty .
The Medical Advisor will direct those activities related to

programng and treatment          contaed in
                                       the RTCs. The
Alcoholism Program Specialist monitors issues related to

meeting the legal requirements for construction of RTCs under

Public Law (P.  ) 99-570.


In Decemer 1990, a workgroup comprised of the Directors of

existing RTCs was appointed to develop guidance progr      g and
                                                               mm;

treatment services in newly constructed or proposed RTCs, and

to identify common problem during the         constrction
                                                     phase of
RTCs . A report on the workplan will be completed at the first

meeting of this workgroup scheduled for January 28, 1991. A

matrix which graphically depicts the        plan
                                             g, construction and
coordina tion phases for completing the construction of RTCs

will be developed by this workgroup by the end of Mach 1991.

ASAPB has developed, in conjunction with the Office of the

General Counsel, a policy that specifies the conditions in

which IHS will construct RTCs. It is expected that this policy

will be approved for 
 plementation by the end of March 1991.
Beginning in January 1991, a monthly consolidated report will

be prepared to address the completion of all RTCs currently in

the planning and development phase and to report on problems

from programs now serving clients. The reports will be

submi tted to the Area Directors, Area Alcoholism/Substance
Abuse Coordinators, and the Associate Director, OEP.

eIG Recommendation

             Ensure that all alcoholism counselors become   certified.
PHS Comment

We concur with the intent of this recommendation. However,
there are legitimate reasons that restrict IRS from ensuring

continuous certification of all alcoholism counselors employed

in Indian alcoholism programs. The IHS is outside the
certification process and must rely upon existing certification
or credentialing entities. There is wide variance in the

                                                                                         py




certification process among States who have such mechanism, as
well as among national credentialing          Some States                bodies.
require counselors to      one year of non-paid, supervisedtae                      certfied.
employment in State certified agencies to become
IHS cannot require tribes to comly with such a                                     reqement.
To do so, would result in no service delivery in some tribal

communi ti


IRS can, howver, ensure an emhasis be established on the 100
percent certification of certifiable counselors. An IRS/tribal
workgroup was for.ed in                                     Decemer 1990
                                      to assist in developing
the mechanism for certifying alcoholism counselors. 

                                                      he first

meeting of this workgroup is scheduled for January 1991, and it

is expected that work on the project will be completed 

                                                                                              the
end of April                     1991.
                    IRS' goal is to certify 80 percent of all
alcoholism counselors employed in alcohol program under
contract to IRS by the end of 1991 and to maintain the 80

percent certification rate.
A plan for certifying alcoholism counselors was developed in

each IHS Area and 
   plemented in 1988. Since 1988,

P . L. 99-570 training funds have been allocated to each Area for
the puroses of    preparing alcoholism counselors to meet
certifica tion requirements and for providing continuigASAPB
education to certified                IHS' Headquarers     counselors.
staff will provide technical assistance to the Area

Alcoholism/Substance Abuse Program to enhance training
endeavors through consultation with treatment programs such as

Hazelden, the Betty Ford Center, and the Commssion on the
Accreditation of Rehabilitation Facilities. Headquarters
consultation to the Areas has been provided on a monthly basis.
A monthly progress report on the certification activities will

be      subtted
             to the Area Directors, the Area
Alcoholism/Substance Abuse Coordinators, and the Associate

Director, OHP.


eIG Recommendation

             Work with the Bureau of Indian Affairs (BIA), Departent
             of Interior, to secure the release of funds that have been

             appropriated for emergency shelters and halfway houses.
PHS Comment

We concur. In Septemer 1990, the Assistant Secretary, BIA,

appointed a director of the Alcoholism and Substance Abuse

Program for that agency. Since this appointment, staff from

IHS' ASAPB have held                                    thee
                           meetings with this new director.
We have been info  ed that funds were released to the Division

of Social Services 
BIA, for distribution to tribes for

construction of emergency shelters in 1989. Of the 20 grant
awards  six tribal groups have completed construction and these

emergency shelters are operational.  Construction of the
remining 14 shelters is exected to   be comleted by the end of
FY 1991.
